Ogunsula vs Staffing Now, Inc. LLC.
Case No. 19-83
Petition for Rehearing
U.S. Supreme Court

CERTIFICATE OF SERVICE

I hereby certify that on 25th day of November 2019, a corrected copy of the
originally filed Petition For Rehearing was sent to the Counsel for the Respondents
of Staffing Now, Inc.

Robert P. Floyd III
CONSTANGY, BROOKS, SMITH & PROPHETE LLP
12500 Fair Lakes Circle, Suite 300
Fairfax. Virginia 22033 -3 804
(571) 522-6109
Email: RFlovd@constangy.com
Attorneys for Defendant Staffing Now, Inc.

Dated this 25th day of November 2019,

/

Veronica W. Ogunsula, Pro Se
9801 Apollo Drive, #63^4
Largo, Maryland 20792
240-486-1427
/

RECEIVED
NOV 2 7 2019

